HHS/OIG, Audit -"Review of Medicare Transitional Pass-Through Payments Made Under The Hospital Outpatient Prospective Payment System for Drugs, Biologicals, and Medical Devices at Saint Mary's Hospital,"(A-03-01-00024)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Transitional Pass-Through Payments Made Under The Hospital Outpatient Prospective Payment System
for Drugs, Biologicals, and Medical Devices at Saint Mary's Hospital," (A-03-01-00024)
January 22, 2002
Complete Text of Report is available in PDF format (204 KB). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether transitional pass-through payments received by Saint Marys
Hospital for drugs, biologicals, and medical devices were reimbursed in accordance with Medicare laws and regulations.  Saint
Marys Hospital located in Richmond, Virginia is part of the Bon Secours Richmond Health System (BSRHS).  The
BSRHS processes all billing and reimbursements of pass-through items used by Saint Marys Hospital.  Based on
our review of payments for 100 sampled items, we found, with minor exceptions, that BSRHS complied with Medicare laws and
regulations for billing transitional pass-through drugs, biologicals and medical devices.  These minor exceptions
had an insignificant effect on the overall Medicare reimbursement. However, to prevent such errors from occurring in the
future, we recommended that BSRHS use the results of our audit to stress to its employees the need to use correct data
in generating Medicare claims.